~

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF COMPLIANCE
No. 19-247
CITY OF BOISE, IDAHO,

Petitioner,
V.

ROBERT MARTIN, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Amicus Curiae Brief of the
International Municipal Lawyers Association,
National League of Cities, National Association of
Counties, International City/County Management
Association, Washington State Association of
Municipal Attorneys, Washington Association of
Sheriffs and Police Chiefs, and Washington State
Sheriffs Association in Support of Petitioner contains
5,910 words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on September 25, 2019.

Do~aJ. Wolf
Becker Galla gher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249
1

A.

KERSHNER, J.D.

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JULIE ANNE l<ERSHNER
N~ary Public, State of Ohio
Y Commission Expires
February 21, 2023

